                                                                       Office               Hotline

  Office of Inspector General                                          202.692.2900
                                                                       peacecorps.gov/OIG
                                                                       OIG Reports
                                                                                            202.692.2915 800.233.5874
                                                                                            Online Contact Form
                                                                                            OIG@peacecorps.gov




To:            Carrie Hessler-Radelet, Acting Director
               Daljit Bains, Chief Compliance Officer

From:          Kathy A. Buller, Inspector General

Date:          February 27, 2013

Subject:       Final Report on the Audit of Peace Corps/Malawi
               (IG-13-02-A)

Transmitted for your information is our final report on the audit of Peace Corps/Malawi.

Management concurred with all 14 recommendations. Based on management’s response we
revised recommendation number 4 to provide the post with the possibility of closing the
recommendation if the replacement checks cannot be collected from the government of Malawi
and we removed the Office of Global Operations from recommendation 5. We closed five
recommendations (numbers 1, 2, 7, 8, and 12) based on a review of corrective actions and
supporting documentation. The remaining recommendations will stay open pending confirmation
from the chief compliance officer that the documentation identified in management’s response
has been received. In its response, management described actions it is taking or intends to take to
address the issues that prompted each of our recommendations. We wish to note that in closing
recommendations, we are not certifying that the agency has taken these actions or that we have
reviewed their effect. Certifying compliance and verifying effectiveness are management’s
responsibilities.

Our comments, which are in the report as Appendix D, address these matters. Please respond
with documentation to close the remaining open recommendation within 90 days of receipt of
this memorandum.

You may address questions regarding follow-up or documentation to Assistant Inspector General
for Audit Bradley Grubb at 202.692.2914 or to Lead Auditor Hal Nanavati at 202.692.2929.

Please accept our thanks for your cooperation and assistance in our review.

Attachment

cc:     Stacy Rhodes, Chief of Staff/Chief of Operations
        Elisa Montoya, White House Liaison/Senior Advisor to the Director
        Bill Rubin, General Counsel
        Esther Benjamin, Associate Director, Global Operations
        Joseph Hepp, Chief Financial Officer
        Samuel Taylor, Budget Officer
        Paul Shea, Director of Global Accounts Payable
        Dick Day, Regional Director, Africa
Alyssa Karp, Chief Administrative Officer, Africa
Edward Hobson, Associate Director, Safety and Security
Brenda Goodman, Deputy Associate Director, Volunteer Support
Kathy Rulon, Acting Director, Office of Global Health and HIV
Kevin Novotny, Country Director
Normand Tremblay, Director of Management and Operations
Jennifer Parrish-Taylor, Special Assistant to the Chief Compliance Officer
Malawi Country Desk
     Peace Corps
     Office of Inspector General




                Peace Corps/Malawi Office in Lilongwe




Map of Malawi                                     Flag of Malawi



                Final Audit Report:
                Peace Corps/Malawi
                    IG-13-02-A
                                                              February 2013
                                   EXECUTIVE SUMMARY
The Office of Inspector General (OIG) conducted an audit of Peace Corps/Malawi (hereafter
referred to as “the post”) June 11 to 22, 2012. At the time of the audit, the post had three U.S.
direct hires, two foreign service nationals, two third-country national contractors, and 16
personal services contractors. The post’s fiscal year (FY) 2011 operating budget was
approximately $1.94 million plus an average of $460,000 per post in costs, such as U.S. Direct
Hire salaries and benefits, centrally-managed by the Africa region (see Background).

We found that the post’s financial and administrative operations required improvement in a
number of areas and did not fully comply with agency policies. Specifically:

        A lack of segregated duties, adequate controls, and oversight over the process for
        collection of host country contribution (HCC) payments resulted in an ineffective process
        that caused two HCC payments, an important funding source, to go uncollected.

        The post did not enforce separation of duties in property management and permitted the
        general services officer (GSO) to carry out vehicle auctions without adequate oversight.
        As a result, three vehicles sold at third party auctions did not appear to be sold with open
        and fair competition in accordance with Peace Corps policy.

        The post did not fully implement the agency’s medical supplies policy for inventory
        management. As a result, medical supply inventories were inaccurate and incomplete,
        and prevented the medical unit from having the reliable information needed to make the
        critical inventory planning decisions necessary to provide high quality medical support to
        Volunteers.

Our report contains 14 recommendations, which, if implemented, should strengthen internal
control and correct the deficiencies detailed in the accompanying report. Management concurred
with all 14 recommendations and took timely action to remediate our findings. As a result, we
closed five recommendations. The remaining nine recommendations remain open pending
documentation described in Appendixes C and D.




Final Audit Report: Peace Corps/Malawi                                                                 i
                                                    TABLE OF CONTENTS

EXECUTIVE SUMMARY................................................................................................................. i

BACKGROUND ................................................................................................................................. 1

AUDIT RESULTS .............................................................................................................................. 1
          HOST COUNTRY CONTRIBUTIONS .................................................................................................................... 1

          PROPERTY MANAGEMENT ................................................................................................................................ 3

          MEDICAL SUPPLIES .......................................................................................................................................... 5

          BILLINGS AND COLLECTIONS ........................................................................................................................... 7

          DISBURSEMENTS .............................................................................................................................................. 8


QUESTIONED COSTS AND FUNDS TO BE PUT TO BETTER USE ................................... 9

LIST OF RECOMMENDATIONS................................................................................................ 10

APPENDIX A: OBJECTIVE, SCOPE, AND METHODOLOGY ........................................... 12

APPENDIX B: LIST OF ACRONYMS ........................................................................................ 13

APPENDIX C: AGENCY’S RESPONSE TO THE PRELIMINARY REPORT .................. 14

APPENDIX D: OIG COMMENTS ............................................................................................... 22

APPENDIX E: AUDIT COMPLETION AND OIG CONTACT ............................................. 23
                                             BACKGROUND
OIG conducted the audit of the post June 11 to 22, 2012. We previously performed an audit May
18 to June 12, 2003 and issued a report in December 2003 (IG-03-05-A).

The first group of Volunteers arrived in Malawi in 1963 and approximately 2,522 Volunteers
have served since then. At the time of our audit, 124 Volunteers were working in the following
program sectors: education, environment, and health and HIV/AIDS. The post’s FY 2011 budget
was approximately $1.94 million. In addition at headquarters the Africa region incurs an average
of $460,000 per overseas post. 1

Our overall objective in auditing overseas posts is to determine whether the financial and
administrative operations are functioning effectively and in compliance with Peace Corps
policies and federal regulations during the period under audit. We reviewed whether the post’s
internal control was in place and operating effectively. Appendix A provides a full description of
our audit objective, scope, and methodology.


                                            AUDIT RESULTS
HOST C OUNTRY CONTRIBUTIONS

The post’s process for collecting HCC payments lacked proper separation of duties, adequate
controls, and oversight of refunds.

The Education, Health, Environment and Tourism ministries of the Government of Malawi
provided cash contributions to the post based on the number of Volunteers serving within the
respective ministries. Each ministry contributes to the Peace Corps at a different rate per
Volunteer and disburses payment at different times. During our review we found that the post did
not have adequate controls to ensure the HCC was properly recorded and collected.

The HCC collection process was managed by the executive assistant without adequate oversight
by the director of management and operation (DMO). The executive assistant estimated the HCC
amount to be collected from each ministry; prepared a pro-forma invoice in Microsoft Word;
maintained a manual tracking sheet; performed follow-up with the ministry officials; arranged
for the collection of checks; and provided information for preparing bills of collection to the
financial assistant based on the check amount. The ministries contacted the executive assistant
when they had checks ready for the HCC, and the executive assistant arranged for a driver to
pick-up the checks and deliver them to the post. According to the DMO, no other employee had
sufficient knowledge of the various aspects of the HCC process or contact with the respective
officials in the ministries to manage the HCC collection process.

1
  The agency was unable to provide the total cost per post as certain costs are centrally-budgeted and managed by
headquarters offices including U.S. Direct Hires salaries and benefits. Office of Budget and Analysis provided the
total cost of $12 million incurred by the Africa region in direct support of its 26 overseas posts in FY 2011, with an
average of $460,000 per post.


Final Audit Report: Peace Corps/Malawi                                                                                   1
The Overseas Financial Management Handbook (OFMH), section 27.2, states:

      As with other types of collections, the Cashier may not take possession of an HCC check/payment before the
      prepared transaction has been entered into FOR Post and the Bill of Collection has been printed. HCC Posts
      must document their process for securing a contribution that is delivered unexpectedly with someone other
      than the Cashier. In addition, posts must monitor the Bill of Collection log in FOR Post to ensure that funds
      are received in a timely way and are properly accounted for.

The post did not follow Peace Corps’ policies for preparing bills of collection (BOC) in the FOR
Post system. The executive assistant prepared manual BOCs (pro-forma invoices) and sent them
to the ministries for payment. She prepared the official BOC in FORPost after collecting the
check. These collections were not properly tracked and monitored to ensure all HCC payments
due were collected. It is Peace Corps policy to enter all HCC BOCs into FOR Post when the
HCC is due to Peace Corps. The Overseas Financial Management Handbook (OFMH), Section
7.6.5, states:

      Posts must enter the BOC for HCC at the start of the due period. For example, if Post is scheduled to receive
      quarterly payments, enter the BOC at the start of the quarter, even though the BOC will be outstanding for 3
      months (or longer). If the exact amount is not known, enter the estimated amount.

In addition, the post had not adequately documented the process for estimating and collecting
HCC from various ministries and the post did not train an alternate person to perform these
duties. The post neither obtained the HCC payment rates per Volunteer nor the payment
schedules from respective ministries for estimating the amount of HCC due to the Peace Corps.
Post management did not obtain supporting reports or other documentation from the ministries to
verify the accuracy and completeness of the HCC checks collected and recorded by the post. Post
management helped us obtain the list of checks issued by various ministries for calendar year
2011 and year-to-date 2012 from the Malawian Accountant General’s Office.

We compared this list with the checks deposited in the bank by the post and noted that two
checks issued by the Ministry of Education in March 2011, amounting to approximately 532,226
Malawian Kwacha (MWK) (3,512 U.S. dollar equivalent (USDE)) were not deposited in the
post’s bank account. The post did not have a record of receiving these checks and no one at the
post knew that these checks were issued by the ministry. During our audit, the DMO informed
the Ministry of Education officials that the post did not collect these checks and requested
replacement checks.

The post currently relies on HCC payments as a funding source for operations. Therefore, the
HCC payments must be properly recorded and tracked to ensure timely collection and to prevent
loss or misappropriation. Appropriate controls, separation of duties, compliance with agency
policies and procedures, and adequate oversight over the HCC process are critical to mitigate
risk of loss and misappropriation of funds of HCC payments disbursed by ministries.

    We recommend:

    1. That the director of management and operations appropriately separate the duties for
       managing the host country contributions, including preparing bills of collection and
       collecting checks from respective ministries.


Final Audit Report: Peace Corps/Malawi                                                                                2
    2. That the director of management and operations expand the standard operating
       procedures for the post’s host country contribution process to include ensuring all bills of
       collection are processed in FORPost system prior to collection.

    3. That the director of management and operations implement a process to issue bills of
       collection for all host country contributions in FORPost based on the respective per
       Volunteer rates and a tracking process to ensure that all payments are received.

    4. That the director of management and operations follow up with Malawian ministry
       officials to attempt to obtain replacement checks for the two missing host country
       contribution payments.


PROPERTY MANAGEMENT

The post did not enforce separation of duties in property management and permitted the GSO to
carry out vehicle auctions without adequate oversight.

The post engaged a third party auctioneer to dispose of three vehicles and other excess property
items such as used furniture and computers. During our review of the post’s property
management practices, we found that the post management did not comply with the agency
guidance or provide adequate oversight and transparency over disposal of vehicles and property.
We identified three vehicles with questionable sale prices, which we reported to the OIG
Investigations Unit.

Sale of Vehicles. The Peace Corps Vehicle Fleet Management Guide requires that vehicles must
be sold for a fair and reasonable in-country price. Proceeds from the sale of vehicles are a
significant resource to the agency and are used to fund vehicle replacements. The post had three
vehicle sales in January 2012 but when the highest bidder declined to pay the accepted bid price
the auction house sold the vehicles at substantially lower prices allegedly to the next highest
bidders (See Table 1). The GSO said he became aware that the price “skyrocketed” and that he
advised the auctioneer to sell to the second highest bidder when the winning bidder could not
pay.

The GSO did not ask the auction house to record the contact information of the next highest bidders
to follow-up and verify that they had purchased the vehicles. The post did not obtain copies of the
vehicle auction bids from the auctioneer, preventing the post from verifying the legitimacy of the
winning bid. Further, the post did not perform market research, which could have indicated improper
auction practices if the proceeds received after the auction were less than the expected estimated
market value. Verifying sales information and developing independent price estimates helps to
provide assurance that the auction receives legitimate bids and that bids are not accepted outside of
the auction process.




Final Audit Report: Peace Corps/Malawi                                                            3
                                     Table 1. January 2012 Vehicle Disposals

                              Winning            Accepted                          10% Auction   Amount
         Vehicle               Bid                 Bid             Difference      Commission    to Post

      2007 Land              3,500,000*          3,000,000              500,000      300,000     2,700,000
    Cruiser CD 112           ($21,446)**         ($18,382)              ($3,064)     ($1,838)    ($16,544)

      2007 Land               5,000,000          3,700,000          1,300,000        370,000     3,330,000
    Cruiser CD 113            ($30,637)          ($22,672)              ($7,966)     ($2,267)    ($20,404)

      2007 Land               5,000,000          3,800,000          1,200,000        380,000     3,420,000
    Cruiser CD 115            ($30,637)          ($23,284)              ($7,353)     ($2,328)    ($20,956)

                             13,500,000         10,500,000          3,000,000       1,050,000    9,450,000
           Total
                              ($82,721)          ($64,338)          ($18,382)        ($6,434)    ($57,904)

   *Figures are presented in MWK unless noted otherwise.
   **USDE. The January 2012 conversion rate was163.20 MWK to the USD.


Based on the analysis of the information provided, it appears that the high bids originally accepted
during the auction were false bids. Therefore, the three vehicles were not sold with fair and open
competition.

Sale of Excess Property. During our review of support for the excess property sale we noted that
the GSO did not reconcile the list of property transferred to the auctioneer with the sales receipts of
actual property sold to verify the payment received was accurate and complete. We compared a
sample of 10 items sold from the auctioneer’s original sales receipts with the auctioneer’s sales
detail provided with payment. We identified two discrepancies: one erroneous sales receipt of MWK
20,000 was recorded as MWK 2,000 ($110 USDE in the Peace Corps’ favor) and another sales
receipt of MWK 30,000 was recorded as MWK 3,000 ($165 USDE in favor of the auctioneer).

The post informed us that all of the items remaining unsold were kept with the auctioneer to be
re-auctioned. However, the post did not have a formal, written agreement to support this type
arrangement with the auctioneer. Further, the post did not have a list of the items that remained
with the auctioneer. This could compromise the agency’s interest as it allows the auctioneer to
have uncontrolled access over government property. Without proper documentation, the post
may not be aware of subsequent property sales and would not know to collect the proceeds.

GSO Responsibility. The GSO did not perform his duties effectively to protect the agency’s
interest, which may have resulted in less than the maximum proceeds for vehicle sales. The GSO
is in charge of handling several critical administrative functions and manages procurement,
property, vehicles, and other critical matters on behalf of the DMO. The position is based on
trust and requires that the duties are conducted in a transparent manner and that there is no
conflict of interest while dealing with staff and third parties on behalf of the Peace Corps. The


Final Audit Report: Peace Corps/Malawi                                                                       4
issues identified above could have been mitigated by proper GSO oversight and communication
of vehicle and property sales.

    We recommend:

    5. That the director of the Office of Management provide additional guidance for sales of
       property and vehicles, to include adequate controls and oversight by post management to
       ensure the property sales are conducted in compliance with agency policies and procedures.

    6. That the director of management and operations develop procedures for the post’s property
       and vehicle sales that implement the controls that ensure fair and open auctions.

    7. That the director of operations and management, in coordination the country director,
       provide adequate oversight of the general services officer and take appropriate
       administrative action of general services staff.


MEDICAL SUPPLIES

The post did not fully implement the agency’s policy for medical supply inventory
management.

The Peace Corps Manual section (MS) 7342 states that:

        It is the policy of the Peace Corps to maintain effective controls and procedures that govern the
        procurement, receipt, storage, inventory, dispensation, and disposal of medical supplies and to adopt and
        implement special standards applicable to controlled substances.

As adequate medical care may not be easily accessible in many host countries, posts have a
medical office with medical staff and maintain medical supplies necessary to provide medical
care to Volunteers during their service. In accordance with Medical Technical Guidelines 240,
the country director (CD) is responsible for providing an appropriate working environment for
the operation of the post medical office and to ensure that effective controls for medical supply
management are in place through required staff assignments, segregation of duties, secure
storage, and periodic inventories.

Medical Supply Forms and Inventories. We conducted a physical count of medical supplies
with an Office of Medical Services (OMS) program analyst. We noted that several key controls
were not in place or operating effectively, including maintaining accurate and complete medical
supply records, separation of duties, and standard operating procedures. We noted the following:

          The post did not properly complete the medical inventory workbook provided by OMS
          to track specially designated medications and controlled substances or properly submit
          their annual inventory to OMS. Inventory entries, such as receipt and dispensation

2
 MS 734 was updated in December 2011 with implementing procedures in Medical Technical Guideline 240,
October 2011.


Final Audit Report: Peace Corps/Malawi                                                                              5
          entries, were not properly recorded in the workbook. Medical inventory staff could not
          explain the discrepancies or why the workbook was not kept up-to-date.

          The medical inventory staff did not have an adequate understanding of their roles and
          responsibilities, which may have contributed to the medical inventory inaccuracies. For
          example, the medical supply inventory control clerk, responsible for maintaining the
          inventory workbook, did not include the adjusted beginning balances based on the
          previous quarterly inventory count in the new copy of the medical inventory workbook.

          The medical inventory staff lacked adequate training to ensure that the inventory count
          was accurate and complete.

As a result, the medical inventory workbook was incomplete and the balances on hand were
inaccurate. During the post’s quarterly physical inventory count of specially designated and
controlled substances, we identified significant differences (14 of the 30 medications) between
the book balance in the inventory workbook and quantities on hand. This increased the post’s
vulnerability to theft or abuse of medical supplies and prevented the post from using the
information to make the inventory planning decisions needed to provide high quality medical
support to Volunteers.

Medical Sharing Agreements. Peace Corps policy allows the transfer or exchange of excess
medical items, including controlled substances, from one Peace Corps post to another or to the
U.S. Embassy. MS 734 does not permit medical supplies to be transferred to a foreign embassy.
The post utilized an informal, unwritten medical sharing agreement between the U.S. Embassy
and the British Embassy. According to the post, they have this agreement in place in order to
obtain and exchange emergency medical supply needs for three rarely used and expensive
medications, which include snake bite venom antidote, a thrombolytic medication used for heart
attacks, and rabies immunoglobin (kept by the post). According to the Peace Corps medical
officer (PCMO), it would be costly for the post to maintain all three drugs, and they are rarely
used, more typically expiring beforehand. We identified an instance in June 2012 where the post
transferred medical supplies to the British Embassy.

MS 734 requires a signed inventory receipt from the receiving agency to document transfer of
medical supplies and controlled substances to the U.S. Embassy. The documentation is essential
for recording the transfer and tracking medical supply accountability and must be forwarded to
OMS and the Office of Management. When the post transferred medications to the British
Embassy, the post did not obtain a written confirmation or receipt from the embassy when the
medication was delivered. 3

Additionally, when posts transfer medications, MS 734 requires them to notify OMS by
providing the transfer information. The post did not notify OMS for the two transfers to the U.S.
Embassy or the one transfer to the British Embassy.


3
 According to the PCMO, the post provided this medication to the British Health Clinic as a short term
emergency reserve until their ordered supplies arrived. The medication was returned to the post when the
British Health Clinic had received their supplies.


Final Audit Report: Peace Corps/Malawi                                                                 6
    We recommend:

    8. That the country director clarify the roles and responsibilities of the medical system
       inventory staff and provide adequate training to perform their duties.

    9. That the medical supply inventory control clerk begin a new copy of the medical
       inventory workbook every quarter using the adjusted beginning balances based on the
       previous quarterly inventory count and record all purchasing, dispensing, and disposing
       of specially designated medications and controlled substances timely.

    10. That the medical supply inventory control clerk conduct a reconciliation of medical supplies
        and the inventory workbook and identify the reasons for the differences. The country director
        monitor this process and initiate any needed corrective action.

    11. That the post discontinue transferring its medical supplies to foreign embassies and
        comply with Peace Corps Manual section 734 when transfers are made to the U.S.
        Embassy, to include obtaining written confirmation for all transfers and notifying the
        Office of Medical Services.


BILLINGS AND COLLECTIONS

The post did not issue bills of collection for personal use of telephones and value added tax in
a timely manner.

Peace Corps policy permits the limited use of government property, such as telephone usage, for
personal use under certain circumstances. MS 547, section 4.2, Use of Government Technology
Services and Equipment, states:

        Use of government technology services and equipment, including access to the Internet, is for official use
        by authorized personnel. Limited personal use (using government equipment for purposes other than
        accomplishing official or otherwise authorized activity) is allowed as provided in this Manual Section.
        However, personal use is a privilege and not a right, and may be revoked or limited at any time at the
        discretion of an employee’s supervisor or the Chief Information Officer. Personal use is subject to the
        following rules.

        (a) Employee personal use of government equipment must not adversely affect the employee’s
            performance; must be of reasonable duration and frequency; and involve activities that cannot
            reasonably be done at another time.

OFMH section 7 allows the post to collect for personal use of a telephone using the itemized bill
from the utility company. The DMO informed us that the post discontinued issuing bills of
collection for personal use of telephone after 2010. The DMO recently performed an analysis of
the post’s telephone charges and identified an excessive telephone usage by staff for personal
purposes. At the time of our visit, the DMO and CD told us that they were evaluating a process
to implement a new policy for charging staff for personal telephone use.




Final Audit Report: Peace Corps/Malawi                                                                               7
In addition, for utility payments, the post did not deduct the value added tax (VAT) refund at the
time of processing invoices and it did not file a claim with the Malawian authorities to claim the
refund of the VAT paid. The post normally deducts VAT from third party vendors invoices and
provides vendors with its VAT tax exemption certificate. Following the audit, the DMO initiated
a claim for a refund of MWK 58,494 ($281 USDE) from VAT paid on certain utility invoices
processed in May and June 2012. We estimated that the total funds put to better use for VAT
paid over the last four fiscal years for all utilities totaled $7,773 USDE.

    We recommend:

    12. That the director of management and operations and the country director develop and
        implement a post policy to issue bills of collection for personal telephone usage.

    13. That the post deduct the value added tax from utility invoices or claim a refund and that
        make an effort to file a refund claim for prior periods with the government of Malawi.


DISBURSEMENTS

Invoices were not being dated stamped to indicate when they were received by the post.

OFMH section 66.10 requires:

    Payments to vendors issued by PC/Washington are made consistent with Federal accounting practices and the
    Prompt Payment Act, 31 U.S.C. § 3903. The purpose of the Prompt Payment Act is to ensure that federal
    agencies make timely payment to vendors and to provide for late interest penalties against agencies that pay
    vendors after a payment due date. Under the Prompt Payment Act, payment to a vendor is due 30 days after
    receipt of a proper invoice or after Government acceptance of the supplies delivered or services performed;
    whichever date is later.

    In consideration that the 30-day period for payment may begin when the Peace Corps receives a proper invoice,
    it is important that the vendor provides all required documentation to initiate the processing for payment. Posts
    should enter vendor invoices into FOR Post upon receipt of goods/services or properly prepared invoice,
    whichever is later. The date entered into FOR Post is the date used as the receipt date for Prompt Payment.

We determined that 3 invoices out of 22 sampled disbursements were not date stamped to
indicate when they were received by the post. Without a properly documented date of receipt, the
DMO could not ensure that invoices were entered into FORPost on the correct date. As a result,
the post did not have assurance that it complied with the Prompt Payment Act.

We discussed this matter with the director of the Office of Global Accounts Payable who
informed us that the financial management officers at Peace Corps headquarters were aware of
this issue and were notifying posts of the date stamp requirement on a case by case basis if they
saw instances of noncompliance.

    We recommend:

    14. That the director of management and operations ensure it is standard procedure for the
        post to consistently date stamp all invoices the moment they are received in the office.


Final Audit Report: Peace Corps/Malawi                                                                              8
                            QUESTIONED COSTS AND
                         FUNDS TO BE PUT TO BETTER USE
We did not identify any questioned costs during the course of the audit, but we did identify funds
to be put to better use. These are funds that could be used more efficiently if management took
actions to implement and complete the recommendations.

                                         Funds to be Put to Better Use

    Recommendation
                                                    Description                        Amount
        Number

             3             Collection of host country contribution checks                $3,512

                           Unclaimed value added tax refund for utilities (projected
             13                                                                          $7,773
                           for two years)




Final Audit Report: Peace Corps/Malawi                                                            9
                             LIST OF RECOMMENDATIONS
We recommend:

    1. That the director of management and operations appropriately separate the duties for
       managing the host country contributions, including preparing bills of collection and
       collecting checks from respective ministries.

    2. That the director of management and operations expand the standard operating
       procedures for the post’s host country contribution process to include ensuring all bills of
       collection are processed in FORPost system prior to collection.

    3. That the director of management and operations implement a process to issue bills of
       collection for all host country contributions in FORPost based on the respective per
       Volunteer rates and a tracking process to ensure that all payments are received.

    4. That the director of management and operations follow up with Malawian ministry
       officials to attempt to obtain replacement checks for the two missing host country
       contribution payments.

    5. That the director of the Office of Management provide additional guidance for sales of
       property and vehicles, to include adequate controls and oversight by post management to
       ensure the property sales are conducted in compliance with agency policies and procedures.

    6. That the director of management and operations develop procedures for the post’s property
       and vehicle sales that implement the controls that ensure fair and open auctions.

    7. That the director of operations and management, in coordination the country director,
       provide adequate oversight of the general services officer and take appropriate
       administrative action of general services staff.

    8. That the country director clarify the roles and responsibilities of the medical system
       inventory staff and provide adequate training to perform their duties.

    9. That the medical supply inventory control clerk begin a new copy of the medical
       inventory workbook every quarter using the adjusted beginning balances based on the
       previous quarterly inventory count and record all purchasing, dispensing, and disposing
       of medical supplies timely.

    10. That the inventory control clerk conduct a reconciliation of medical supplies and the
        inventory workbook and identify the reasons for the differences. The country director
        monitor this process and initiate any needed corrective actions.

    11. That the post discontinue transferring its medical supplies to foreign embassies and comply
        with Peace Corps Manual section 734 when transfers are made to the U.S. Embassy, to



Final Audit Report: Peace Corps/Malawi                                                           10
        include obtaining written confirmation for all transfers and notifying the Office of Medical
        Services.

    12. That the director of management and operations and the country director develop and
        implement a post policy to issue bills of collection for personal telephone usage.

    13. That the post deduct the value added tax from utility invoices or claim a refund and that
        make an effort to file a refund claim for prior periods with the government of Malawi.

    14. That the director of management and operations ensure it is standard procedure for the
        post to consistently date stamp all invoices the moment they are received in the office.




Final Audit Report: Peace Corps/Malawi                                                             11
      APPENDIX A: OBJECTIVE, SCOPE, AND METHODOLOGY
Our objective in auditing overseas posts is to determine whether the financial and administrative
operations are functioning effectively and comply with Peace Corps policies and federal
regulations. Our audit conclusions are based on information from four sources: (1) document and
data analysis, (2) interviews, and (3) direct observation. We conducted this performance audit in
accordance with generally accepted government auditing standards. Those standards require that
we plan and perform the audit to obtain sufficient, appropriate evidence to provide a reasonable
basis for our findings and conclusions based on our audit objectives. We believe that the
evidence obtained provides a reasonable basis for our findings and conclusions based on our
audit objectives.

The audit of Peace Corps/Malawi covered FYs 2009 through May 2012. While at the post, we
interviewed key staff including the CD, the DMO, staff responsible for administrative support,
and the two Peace Corps medical officers. As part of the audit process, we briefed the CD and
DMO. At headquarters, we conducted a general briefing for regional staff.

We relied on computer-processed data from the post’s accounting system and verified such data with
hard-copy documents as required. While we did not test the system’s controls, we believe the
information generated by the system and used by us was sufficiently reliable for our audit objective.

Our audit criteria were derived from the following sources: federal regulations, the Peace Corps
Manual, Overseas Financial Management Handbook, Medical Technical Guidelines, and other
Peace Corps policies and initiatives.




Final Audit Report: Peace Corps/Malawi                                                           12
                         APPENDIX B: LIST OF ACRONYMS
   BOC                             Bill of Collection
   CD                              Country Director
   DMO                             Director of Management and Operations
   FY                              Fiscal Year
   GSO                             General Services Officer
   HCC                             Host Country Contribution
   MS                              Peace Corps Manual Section
   MWK                             Malawian Kwacha
   OFMH                            Overseas Financial Management Handbook
   OIG                             Office of Inspector General
   OMS                             Office of Medical Service
   PCMO                            Peace Corps Medical Officer
   USDE                            U.S. Dollar equivalent
   VAT                             Value Added Tax




Final Audit Report: Peace Corps/Malawi                                      13
    APPENDIX C: AGENCY’S RESPONSE TO THE PRELIMINARY
                                         REPORT




Final Audit Report: Peace Corps/Malawi                 14
                            APPENDIX D: OIG COMMENTS
Management concurred with all 14 recommendations. In its response, management described
actions it is taking or intends to take to address the issues that prompted each of our
recommendations. Based on management’s response we revised recommendation number 4 to
provide the post with the possibility of closing the recommendation if the replacement checks
cannot be collected from the government of Malawi and we removed the Office of Global
Operations from recommendation 5. We closed five recommendations (numbers 1, 2, 7, 8, and
12) based on evidence of corrective actions that address the recommendations. We wish to note
that in closing recommendations, we are not certifying that the agency has taken these actions, or
that we have reviewed their effect. Certifying compliance and verifying effectiveness are
management’s responsibilities. However, when we feel it is warranted, we may conduct a
follow-up review to confirm that action has been taken and to evaluate the impact. The
remaining nine recommendations remain open pending a copy of documentation listed in the
agency’s response.




Final Audit Report: Peace Corps/Malawi                                                          22
      APPENDIX E: AUDIT COMPLETION AND OIG CONTACT
AUDIT COMPLETION                         Lead Auditor Hal Nanavati and Senior Auditor Gabrielle
                                         Perret performed the audit of Peace Corps/Malawi.




                                         Bradley Grubb
                                         Assistant Inspector General for Audit

OIG CONTACT                              If you wish to comment on the quality or usefulness of this
                                         report to help us strengthen our product, please e-mail
                                         Assistant Inspector General for Audit Bradley Grubb, at
                                         bgrubb@peacecorps.gov, or call him at (202) 692-2914.




Final Audit Report: Peace Corps/Malawi                                                                 23
 Help Promote the Integrity, Efficiency, and
      Effectiveness of the Peace Corps
  Anyone knowing of wasteful practices, abuse, mismanagement,
   fraud, or unlawful activity involving Peace Corps programs or
personnel should contact the Office of Inspector General. Reports or
             complaints can also be made anonymously.



                             Contact OIG

                             Reporting Hotline:
          U.S./International:      202.692.2915
          Toll-Free (U.S. only):   800.233.5874

          Email:                   OIG@peacecorps.gov
          Web Form:                www.peacecorps.gov/OIG/ContactOIG

          Mail:                    Peace Corps Office of Inspector General
                                   P.O. Box 57129
                                   Washington, D.C. 20037-7129

                     For General Information:
          Main Office:             202.692.2900
          Website:                 http://www.peacecorps.gov/OIG
            Twitter:               https://twitter.com/PCOIG
